No. 20-

 

 

In THE
Supreme Court of the United States

DAVID ABRAM ANAYA,

Petitioner,
v.

BOBBY LUMPKIN,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,034 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 12, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
